1a
2020 WL 897376
Only the Westlaw citation is currently available.
NOTICE: THIS OPINION HAS NOT BEEN
RELEASED FOR PUBLICATION IN THE
PERMANENT LAW REPORTS. UNTIL RELEASED,
IT IS SUBJECT TO REVISION OR WITHDRAWAL.
Court of Appeals of Texas, Houston (14th Dist.).
AMEC FOSTER WHEELER PLC, Appellant
v.
ENTERPRISE PRODUCTS OPERATING LLC,
Appellee
NO. 14-18-00133-CV
|
Opinion filed February 25, 2020
On Appeal from the 151st District Court, Harris
County, Texas, Trial Court Cause No. 2016-59155
Attorneys and Law Firms
Christopher Bradford, Austin, Patrick E. Gaas, Edward S. Hubbard, Heather Elise Asselin, Houston, Jason Steed, Dallas, for Appellant.
Robin C. Gibbs, Mark Anthoony Giugliano, Houston,
Richard Krebs, Julian Fertitta, Houston, for Appellee.
Panel consists of Chief Justice Frost and Justices Zimmerer and Hassan.

2a
OPINION
Kem Thompson Frost, Chief Justice
In this interlocutory appeal, a company organized
under the laws of England and Wales challenges the
overruling of its special appearance based on specific
jurisdiction and the plaintiff ’s alter-ego theory of personal jurisdiction. Concluding that the trial court did
not err in overruling the special appearance based on
specific jurisdiction, we affirm.
I.

FACTUAL AND PROCEDURAL
BACKGROUND

Appellee/plaintiff Enterprise Products Operating
LLC, a Texas limited liability company with its principal place of business in Texas, sued two defendants in
the trial court below: (1) Foster Wheeler USA Corporation, a Delaware corporation now known as Amec Foster Wheeler USA Corporation, with its principal place
of business in Texas (“Foster Wheeler”); and (2) Amec
Foster Wheeler plc, a company organized under the
laws of England and Wales, with its principal place of
business in England (“Foster Wheeler PLC”).
In July 2013, Enterprise and Foster Wheeler executed a contract for the engineering, procurement,
and construction of a propane dehydrogenation facility
in Mont Belvieu, Texas (the “Contract”). According to
Enterprise’s live pleading, the primary purpose of a
propane dehydrogenation facility is to convert propane
into propylene, which is an ingredient in plastic and

3a
various other products. The parties to the Contract
agreed that the Contract would be governed by, and
construed and enforced in accordance with, Texas law.
The parties consented to the personal jurisdiction of
any state or federal court located in Harris County,
Texas, in any legal proceeding with respect to the Contract.
Enterprise alleges that from July 2013 through
October 2014, Foster Wheeler failed to take many actions that it should have taken and failed to comply
with the Contract in many respects. Enterprise claims
that as it became evident that Foster Wheeler had no
idea how much engineering work it had left to complete, in October 2014, Enterprise called for a complete
engineering stand-down to assess the severity of Foster Wheeler’s engineering issues. According to Enterprise, as a result of this stand-down assessment, it
became obvious that Foster Wheeler had a significant
volume of engineering work left to do, which was
wholly inconsistent with the schedule and Foster
Wheeler’s staffing projections. Enterprise alleges that
around this time, Foster Wheeler knowingly and
falsely misrepresented the project’s schedule to Enterprise to avoid being terminated as contractor under the
Contract.
On November 13, 2014, Foster Wheeler PLC, formerly known as Amec plc, indirectly acquired Foster
Wheeler. As a result, the name of Foster Wheeler
changed from “Foster Wheeler USA Corporation” to
“Amec Foster Wheeler USA Corporation.” Enterprise
alleges that after this transaction, Foster Wheeler PLC

4a
took over control of the project and replaced many of
Foster Wheeler’s project managers and leaders with
its own personnel. Enterprise claims that, through its
words and actions, Foster Wheeler PLC “purposefully
inserted itself in the contractual relationship between
Enterprise and Foster Wheeler, stood in Foster
Wheeler’s shoes[,] . . . supplanted Foster Wheeler’s
management of daily operations, and assumed and ratified Foster Wheeler’s obligations and benefits under
the [Contract].” According to Enterprise, Simon Naylor,
who served as Foster Wheeler PLC’s “Group President,
Americas,” assumed ultimate control over the project
almost immediately following the acquisition. Enterprise claims that Naylor (1) assigned legacy Amec personnel from around the world to travel to Texas and
work on the project, (2) met face to face many times
with Enterprise management, executives, and board
members regarding the project at Enterprise’s Houston, Texas headquarters; and (3) regularly reported
back to Foster Wheeler PLC’s Chief Executive Officer
regarding the project’s status and the efforts to turn
the project around and satisfy Enterprise.
Enterprise asserts that Naylor, Jeff Reilly, and Peter Bailey were employees or agents of Foster Wheeler
PLC. Enterprise alleges that Naylor, Reilly, and Bailey
met with Enterprise management several times in
Houston and that during these meetings the Enterprise representatives explained the dire state of the
project, Foster Wheeler’s dismal performance to date,
and the highly disturbing trajectory of the costs and
schedule. Enterprise claims that it was prepared to

5a
terminate the Contract and replace Foster Wheeler
with another contractor but for Foster Wheeler PLC
stepping in, bringing in new legacy Amec personnel,
and taking over the project. According to Enterprise,
Foster Wheeler PLC’s management agreed that Foster
Wheeler’s performance had been poor, and Foster
Wheeler PLC stated that it took full ownership and responsibility for Foster Wheeler’s failures. Enterprise
alleges that Foster Wheeler PLC represented that it
would work to address these concerns immediately,
use its “global resources” to get the project back on
track, and ensure that all future work on the project
would be performed properly to Enterprise’s satisfaction. Enterprise asserts that these representations
were material to Enterprise, and effectively gained
Foster Wheeler a “stay of execution” because Enterprise relied upon those representations in deciding not
to terminate Foster Wheeler at that time. According to
Enterprise, Naylor, Reilly, and Bailey, on behalf of Foster Wheeler PLC, controlled the project and its team
thereafter and communicated directly with Enterprise
management about the project’s status.
Enterprise claims that despite the alleged promises and personnel changes, Foster Wheeler PLC did
not rescue the failing project. Enterprise claims that
failures continued, including negligent construction
work, and that breaches of contractual duties, warranties, and common-law duties of care by Foster Wheeler
PLC and Foster Wheeler directly caused enormous cost
overruns and schedule delays on the project. Enterprise claims that by the fall of 2015, it had no choice

6a
but to hire a replacement general contractor. According
to Enterprise, “[Foster Wheeler PLC]/Foster Wheeler”
and Enterprise agreed to the “Transition Services
Agreement, under which the parties agreed to a partial
termination of the Contract and the selection of Optimized Process Designs, LLC to take over the remaining
construction work while “[Foster Wheeler PLC]/Foster
Wheeler” remained responsible for the remaining engineering work. Enterprise asserts that as Optimized
Process took over the construction, Enterprise and
Optimized Process discovered many additional, significant problems with Foster Wheeler’s and Foster
Wheeler PLC’s work.
In September 2016, Enterprise terminated the
Contract for cause and filed this lawsuit against Foster
Wheeler and Foster Wheeler PLC (collectively the
“Foster Wheeler Parties”). Enterprise alleges that Foster Wheeler PLC is jointly and severally liable for Foster Wheeler’s wrongful conduct. Enterprise asserts a
fraudulent-inducement claim against Foster Wheeler
only and claims against both of the Foster Wheeler
Parties for (1) breach of contract, (2) breach of warranty, (3) “string-along fraud,” (4) professional negligence, (5) unjust enrichment, and (6) money had and
received. Enterprise also seeks to recover exemplary
damages based on the alleged gross negligence of each
of the Foster Wheeler Parties. Enterprise also asserts
against Foster Wheeler PLC claims for negligent misrepresentation and purported claims for equitable estoppel and direct-benefits estoppel. In addition to
seeking substantial money damages, Enterprise seeks

7a
the remedies of equitable disgorgement and fee forfeiture.
Foster Wheeler PLC filed a special appearance
challenging the trial court’s ability to exercise personal
jurisdiction over Foster Wheeler PLC. Foster Wheeler
PLC asserts that it is a holding company organized under the laws of England and Wales with its principal
place of business in England. Foster Wheeler PLC
states that virtually all of its employees live and work
in the United Kingdom. Foster Wheeler PLC submitted evidence that, as of October 31, 2016, it owned the
controlling interest in 439 subsidiaries and affiliates
that operated in more than 55 countries in virtually
every region of the world. According to Foster Wheeler
PLC and an affidavit it submitted, Foster Wheeler PLC
derives all of its revenue from the return on its investments in its subsidiaries and affiliates, and Foster
Wheeler PLC does not directly engage in the business
conducted by its subsidiaries and affiliates. According
to Foster Wheeler PLC, its subsidiaries and affiliates
conduct all operations. And, the subsidiaries and affiliates or their employees in the countries where they
are authorized to operate hold the licenses to engage
in these operations. Foster Wheeler PLC claims that
all employees who engage in the operations of the subsidiaries and affiliates do so on behalf of the subsidiaries and affiliates and not on behalf of Foster Wheeler
PLC. Foster Wheeler PLC asserted that Naylor, Reilly,
and Bailey are employees of Amec E&C Services, Inc.,
a Georgia corporation with its principal place of business in Georgia (“Amec E&C”) and not employees of

8a
Foster Wheeler PLC. According to Foster Wheeler PLC,
no representative of Foster Wheeler PLC was present
at any of the meetings on which Enterprise bases its
claims. Foster Wheeler PLC submitted a substantial
amount of evidence and challenged the trial court’s
ability to exercise personal jurisdiction over Foster
Wheeler PLC based on specific jurisdiction, general jurisdiction, or on Foster Wheeler PLC’s alleged status
as an alter ego of Foster Wheeler.1
Enterprise opposed the special appearance and
submitted evidence. Enterprise made various statements and assertions, including an argument that
Naylor, Reilly, and Bailey acted as employees and
agents of Foster Wheeler PLC. Enterprise asserted
that the trial court properly could exercise personal jurisdiction over Foster Wheeler PLC based on specific
jurisdiction, general jurisdiction, or on Foster Wheeler
PLC’s alleged status as an alter ego of Foster Wheeler.
The trial court overruled Foster Wheeler PLC’s
special appearance based on both specific jurisdiction
and the alter ego theory. The trial court determined
that it could not exercise personal jurisdiction over
Foster Wheeler PLC based on general jurisdiction. The
trial court issued findings of fact and conclusions of
law. Foster Wheeler PLC timely perfected this interlocutory appeal from the trial court’s special-appearance
order.

1

Foster Wheeler PLC made various other statements and
assertions not described here.

9a
II.

ISSUES AND ANALYSIS

In four appellate issues, Foster Wheeler PLC asserts that (1) the trial court erred in holding that it
may exercise personal jurisdiction over Foster Wheeler
PLC based on specific jurisdiction; (2) the trial court
erred in finding that Foster Wheeler and Foster
Wheeler PLC are alter egos for jurisdictional purposes;
(3) the trial court erred in finding that Foster Wheeler
PLC has a “significant presence in Texas” and “numerous and substantial contacts with Texas”; and (4) the
exercise of personal jurisdiction over Foster Wheeler
PLC in this case would not comport with traditional
notions of fair play and substantial justice.
A.

Did the trial court err in determining that
it could exercise personal jurisdiction
over Foster Wheeler PLC based on specific
jurisdiction?

In its first issue, Foster Wheeler PLC challenges
the trial court’s determination that it may exercise personal jurisdiction over Foster Wheeler PLC based on
specific jurisdiction. Foster Wheeler PLC challenges
several of the trial court’s findings. We begin the analysis by examining the standard of review and personal-jurisdiction legal standards and then we
consider whether the evidence before the trial court
supported certain findings.

10a
1. Standard of Review
Whether Foster Wheeler PLC is subject to personal jurisdiction in Texas is a question of law subject
to de novo review. See BMC Software Belgium, N.V. v.
Marchand, 83 S.W.3d 789, 794 (Tex. 2002). But, the
trial court frequently must resolve questions of fact before deciding the jurisdiction question. See id. When,
as in today’s case, the trial court rules on a special appearance and issues findings of fact and conclusions of
law, the appellant may challenge the legal and factual
sufficiency of the evidence supporting the fact findings.
See id.
Foster Wheeler PLC has challenged the legal and
factual sufficiency of the evidence supporting several
trial court findings. When reviewing the legal sufficiency of the evidence, we consider the evidence in the
light most favorable to the challenged finding and indulge every reasonable inference that would support
it. City of Keller v. Wilson, 168 S.W.3d 802, 823 (Tex.
2005). We must credit favorable evidence if a reasonable factfinder could and disregard contrary evidence
unless a reasonable factfinder could not. See id. at 827.
We must determine whether the evidence at trial
would enable reasonable and fair-minded people to
find the facts at issue. See id. The factfinder is the only
judge of witness credibility and the weight to give to
testimony. See id. at 819.
When reviewing a challenge to the factual sufficiency of the evidence, we examine the entire record,
considering both the evidence in favor of, and contrary

11a
to, the challenged finding. Maritime Overseas Corp. v.
Ellis, 971 S.W.2d 402, 406–07 (Tex. 1998). After considering and weighing all the evidence, we set aside the
fact finding only if it is so contrary to the overwhelming
weight of the evidence as to be clearly wrong and unjust. Id. The trier of fact is the sole judge of the credibility of the witnesses and the weight to be given to
their testimony. GTE Mobilnet of S. Tex. v. Pascouet, 61
S.W.3d 599, 615–16 (Tex. App.—Houston [14th Dist.]
2001, pet. denied). We may not substitute our own
judgment for that of the trier of fact, even if we would
reach a different answer on the evidence. Maritime
Overseas Corp., 971 S.W.2d at 407. The amount of evidence necessary to affirm a judgment is far less than
that necessary to reverse a judgment. Pascouet, 61
S.W.3d at 616.
2. Legal Standards as to the Exercise of
Personal Jurisdiction
The Texas long-arm statute allows a court to exercise personal jurisdiction as far as the federal constitutional requirements of due process will permit. See
Tex. Civ. Prac. & Rem. Code Ann. §§ 17.041-.045 (West,
Westlaw through 2019 R.S.); BMC Software, 83 S.W.3d
at 795. The plaintiff bears the initial burden of pleading allegations sufficient to confer jurisdiction under
the Texas long-arm statute. See Moncrief Oil Int’l, Inc.
v. OAO Gazprom, 414 S.W.3d 142, 149 (Tex. 2013). The
long-arm statute allows the exercise of personal jurisdiction over a nonresident defendant who “contracts by
mail or otherwise with a Texas resident and either

12a
party is to perform the contract in whole or in part in
this state” or who “commits a tort in whole or in part
in [Texas].” Tex. Civ. Prac. & Rem. Code § 17.042(1),(2)
(West, Westlaw through 2019 R.S.). Because Enterprise satisfied its initial burden, the burden shifted to
Foster Wheeler PLC to negate all potential bases for
personal jurisdiction Enterprise alleged. See Moncrief
Oil Int’l, Inc., 414 S.W.3d at 149.
Personal jurisdiction over a nonresident defendant is constitutional when two conditions are met: (1)
the defendant has established minimum contacts with
the forum state and (2) the exercise of personal jurisdiction comports with traditional notions of fair play
and substantial justice. See BMC Software, 83 S.W.3d
at 795. For a defendant to have sufficient contacts with
the forum, it is essential that there be some act by
which the defendant “purposefully avails” itself of the
privilege of conducting activities in the forum state,
thus invoking the benefits and protections of its laws.
Michiana Easy Livin’ Country, Inc. v. Holten, 168
S.W.3d 777, 784 (Tex. 2005). In analyzing personal jurisdiction, only the defendant’s purposeful contacts
with the forum count; personal jurisdiction over a defendant cannot be based on the unilateral activity of
another party. Id. at 785. A defendant should not be
subject to a Texas court’s jurisdiction based on random,
fortuitous, or attenuated contacts. Id. For there to be
purposeful availment, a defendant must seek some
benefit, advantage, or profit by “availing” itself of the
jurisdiction. Id.

13a
Although not determinative, foreseeability is an
important consideration in deciding whether the nonresident defendant purposefully has established minimum contacts with Texas. BMC Software, 83 S.W.3d at
795. The concept of foreseeability is implicit in the requirement that there be a substantial connection between the defendant and Texas arising from the
defendant’s conduct purposefully directed toward
Texas. See Guardian Royal Exch. Assur., Ltd. v. English
China Clays, P.L.C., 815 S.W.2d 223, 227 (Tex. 1991).
Specific jurisdiction exists when the claims in
question arise from or relate to the defendant’s purposeful contacts with Texas. Am. Type Culture Collection Inc. v. Coleman, 83 S.W.3d 801, 807 (Tex. 2002). In
conducting a specific-jurisdiction analysis, we focus on
the relationship among the defendant, Texas, and the
litigation. See Guardian Royal, 815 S.W.2d at 228. For
a nonresident defendant’s contacts with Texas to support an exercise of specific jurisdiction, there must be
a substantial connection between the defendant’s purposeful contacts with Texas and the operative facts of
the litigation. See Moki Mac River Expeditions v.
Drugg, 221 S.W.3d 569, 585 (Tex. 2007).
3. Fact Findings as to Specific Jurisdiction
The trial court made the following findings relating to specific jurisdiction:
5.

[Foster Wheeler PLC’s] employees, agents,
and/or apparent agents—including Simon
Naylor (Group President of [Foster Wheeler

14a
PLC’s] Americas Business Unit), Jeff Reilly
([Foster Wheeler PLC’s] Group President of
Strategy and Business Development), and Peter Bailey ([Foster Wheeler PLC’s] Senior Vice
President of Project Delivery for the Americas
Business Unit, and one of Naylor’s direct reports)—were physically present in Texas for
substantial periods of time during which they
directed and managed the [project].2
6.

2

[Foster Wheeler PLC], through its employees,
agents, and/or apparent agents, among other
things:
a.

Attended numerous meetings at Enterprise’s Houston headquarters about the
[project], visited the [project] site in Mont
Belvieu, and exchanged numerous emails
and letters with Enterprise in Texas
about the [project].

b.

Directed, controlled, and managed the
[project] in Texas.

c.

Made representations to Enterprise in
Texas that gave rise to Enterprise’s fraud,
negligent misrepresentation, and estoppel claims against [Foster Wheeler PLC].

d.

Performed and/or was responsible for acts
and omissions in Texas, regarding the
[project] in Texas, which gave rise to Enterprise’s gross and professional [sic] negligence and unjust enrichment claims
against [Foster Wheeler PLC].

Italics in original.

15a
e.

Made representations and/or promises,
and performed acts and/or omissions, in
Texas that gave rise to Enterprise’s assumption and breach of contract claims
against [Foster Wheeler PLC].

4. Sufficiency of the Evidence that Naylor
was an employee of Foster Wheeler PLC
Foster Wheeler PLC agrees that Naylor maintained his office in Houston, Texas, during the relevant
time period. However, Foster Wheeler PLC asserts that
Naylor was an employee of Amec E&C who acted on
behalf of Foster Wheeler—not Foster Wheeler PLC—
when he engaged in the conduct upon which Enterprise relies in asserting its claims.
The record contains a letter that served as
Naylor’s employment agreement at the time Naylor
engaged in the conduct on which Enterprise bases its
claims (the “Relevant Time”). Naylor testified that Will
Serle was the Group Human Resources Director of Foster Wheeler PLC and that Serle sent the letter from
London to Naylor in Houston, Texas, using Foster
Wheeler PLC letterhead. In this correspondence, Serle
says that the letter sets out the terms and conditions
applicable to Naylor’s new role as “Group President,
Americas,” in which Naylor will report to Chief Executive Officer Samir Brikho. Brikho was Chief Executive
Officer of Foster Wheeler PLC. In the letter, Serle
states that in his position he also will be serving as a
member of Foster Wheeler PLC’s “Group Management
Committee” and that Naylor “will work out of the

16a
Houston office.” Serle stated that “[t]his document will
serve as an Employment Agreement between you,
[Amec E&C][,] AMEC Global Resources[,] and the
parent company [Foster Wheeler PLC], collectively
‘AMEC.’ ” In the letter Serle discusses the terms of
Naylor’s “employment with AMEC,” refers to Naylor’s
employer as “AMEC,” and refers to Naylor as an “employee of AMEC,” a defined term that includes Foster
Wheeler PLC and two other entities, but does not include Foster Wheeler. According to the letter, “AMEC,”
which includes Foster Wheeler PLC, may terminate
Naylor’s employment for cause if Naylor disobeys “lawful orders or directives of the [Foster Wheeler PLC]
Board or the CEO.” In the letter Serle states that the
internal laws of the state in the United States in which
Naylor resides will govern the validity, interpretation,
construction, and performance of the employment
agreement. The record reflects that Naylor was residing in Texas, so Texas law governed Naylor’s employment by the three entities, including Foster Wheeler
PLC, while Naylor was working out of an office in
Houston, Texas. Naylor signed the letter agreement
and returned it to Serle.
The record also contains a document in which the
Chief Executive Officer of Foster Wheeler PLC delegated authority to the Group Presidents, which would
include Naylor as Group President of the Americas. In
this document, Foster Wheeler PLC’s Chief Executive
Officer stated that the Group Presidents “are mandated by the [Chief Executive] to direct and manage
the day-to-day business operations of [Foster Wheeler

17a
PLC] within the respective geographical regions of the
world specifically assigned to them by the Chief Executive in accordance with / as clarified below.” Texas fell
within the region of the Americas assigned to Naylor
as Group President of the Americas. Under the document, the Group Presidents have authority to enter
into certain types of contracts and to take other actions.
Naylor testified at his deposition, giving details
about his encounters with Enterprise, including the
following: (1) Naylor’s business card said he was
“Group President of the Americas” and showed that his
office was in Houston, Texas; (2) Naylor believed that
he introduced himself to Richard Hutchison, a representative of Enterprise, as “the Group President of the
Americas business unit”; (3) Naylor introduced himself
to senior Enterprise personnel as “the Group President
of the Americas”; (4) Naylor did not recall whether
from January 2015 through May 2016, there was an
individual serving as Chief Executive Officer of Amec
Foster Wheeler USA Corporation; and (5) Naylor did
not know who owned the office in Houston at which he
was working during the Relevant Time. The record
also contains the employment agreement for John
Pearson, the person who took over as Group President
of the Americas after Naylor left that position. Under
Pearson’s employment agreement, Pearson’s only employer is Foster Wheeler PLC.
Naylor submitted an affidavit in which he stated
that during the Relevant Time he was employed by
Amec E&C and that he has never been an officer or

18a
director of Foster Wheeler PLC. The evidence contains
W-2 forms issued by Amec E&C showing that Naylor
is an employee of Amec E&C. Naylor stated that when
he was Group President of the Americas he maintained
his office at the headquarters of Foster Wheeler in
Houston. According to Naylor, he has “never intentionally represented to anyone that [he] was acting on behalf of, or with the authority from, [Foster Wheeler
PLC].”
Under Naylor’s employment agreement, Naylor
was an employee of three companies, one of which was
Foster Wheeler PLC. Under the delegated-authority
document, the Chief Executive Officer of Foster
Wheeler PLC delegated authority to Naylor as Group
President of the Americas, and mandated that Naylor
direct and manage the day-to-day business operations
of Foster Wheeler PLC within the Americas in accordance with the delegated-authority document. The record also contains evidence showing that the person
who succeeded Naylor as Group President of the Americas served as an employee only of Foster Wheeler PLC.
Despite the conflicting evidence, under the applicable
standard or review, we conclude that the evidence is
legally and factually sufficient to support a finding
that Naylor was acting as an employee of Foster
Wheeler PLC. See Huynh v. Nguyen, 180 S.W.3d 608,
620 (Tex. App.—Houston [14th Dist.] 2005, no pet.).
Thus, the evidence is legally and factually sufficient to
support the trial court’s finding that Naylor was an
employee, agent, and/or apparent agent of Foster
Wheeler PLC.

19a
5. Sufficiency of the Evidence that Reilly
was an employee of Foster Wheeler PLC
Foster Wheeler PLC agrees that Reilly maintained his office in Houston, Texas, during the Relevant Time. But, Foster Wheeler PLC asserts that
Reilly was an employee of Amec E&C who acted on behalf of Foster Wheeler—not Foster Wheeler PLC—
when he engaged in the conduct upon which Enterprise relies in asserting its claims.
The record contains a letter that served as Reilly’s
employment agreement during the Relevant Time.
Will Serle sent that letter to Reilly in Houston, Texas.
Evidence in the record shows that Serle was the Group
Human Resources Director of Foster Wheeler PLC.
Serle sent the letter using Foster Wheeler PLC letterhead. In the letter Serle confirms an offer of employment for Reilly to serve as “Group President, Business
Development,” in which Reilly will report to Chief Executive Officer Samir Brikho. Brikho was Chief Executive Officer of Foster Wheeler PLC. In the letter, Serle
states that in this position Reilly also will serve as a
member of Foster Wheeler PLC’s “Management Team”
and that Reilly “will work out of the Houston office.”
Serle stated that “[t]his document will serve as an
Employment Agreement between you, [Amec E&C][,]
and the parent company [Foster Wheeler PLC], collectively ‘AMEC.’ ” In the letter Serle discusses the terms
of Reilly’s “employment with AMEC,” refers to Reilly’s
employer as “AMEC,” and refers to Reilly as an “employee of AMEC,” a defined term that includes Foster
Wheeler PLC and Amec E&C, but does not include

20a
Foster Wheeler. According to the letter, “AMEC,” which
includes Foster Wheeler PLC, may terminate Reilly’s
employment for cause if Reilly disobeys “lawful orders
or directives of the [Foster Wheeler PLC] Board or the
CEO.” In the letter Serle states that the internal laws
of the state of Reilly’s residence will govern the validity, interpretation, construction, and performance of
the employment agreement. The record reflects that
Reilly was residing in Texas, so Texas law would govern Reilly’s employment by Foster Wheeler PLC and
Amec E&C while Reilly was working out of an office in
Houston, Texas. Reilly signed the letter agreement and
returned it to Serle.
The record also contains a document in which the
Chief Executive Officer of Foster Wheeler PLC delegates authority to the Group Presidents. Reilly served
as “Group President, Business Development.” In delegating authority, Foster Wheeler PLC’s Chief Executive Officer states that the Group Presidents “are
mandated by the [Chief Executive] to direct and manage the day-to-day business operations of [Foster
Wheeler PLC] within the respective geographical regions of the world specifically assigned to them by the
Chief Executive in accordance with / as clarified below.”
Under the document, the Group Presidents have authority to enter into certain types of contracts and to
take other actions.
Reilly testified at his deposition that during his
meetings or other conversations with Enterprise personnel, he never represented to anyone that he was an
employee of Amec E&C and that he never would have

21a
said that he was employed by Foster Wheeler. Reilly
testified that he never reported to anyone at Foster
Wheeler.
Reilly submitted an affidavit in which he stated
that during the Relevant Time he was employed by
Amec E&C and that he has never been an officer or
director of Foster Wheeler PLC. The evidence contains
W-2 forms issued by Amec E&C showing that Reilly is
an employee of Amec E&C. Reilly also stated that (1)
he is “Group President, Strategy and Business Development” and a member of the Group Leadership Team
that coordinates the management of the operational
subsidiaries and affiliates owned by Foster Wheeler
PLC; (2) during the Relevant Time he established his
office at the headquarters of Foster Wheeler in Houston; (3) he has “never intentionally represented to
anyone that [he] was acting on behalf of, or with the
authority from, [Foster Wheeler PLC]”; (4) when he
met with representatives of Enterprise he was not
acting as a representative of Foster Wheeler PLC; and
(5) no officer, director, or other representative of Foster
Wheeler PLC ever attended the meetings with the Enterprise representatives.
Under Reilly’s employment agreement, Reilly is
an employee of two companies, one of which is Foster
Wheeler PLC. Under the delegated-authority document, Foster Wheeler PLC’s Chief Executive Officer
delegated authority to Reilly as Group President of

22a
Strategy and Business Development,3 and mandated
that he direct and manage the day-to-day business operations of Foster Wheeler PLC within the respective
geographical regions of the world specifically assigned
to him in accordance with the delegated-authority document. Though the record contains conflicting evidence, under the applicable standard or review, we
conclude that the evidence is legally and factually sufficient to support a finding that Reilly was acting as
an employee of Foster Wheeler PLC. See Huynh, 180
S.W.3d at 620. Thus, the evidence is legally and factually sufficient to support the trial court’s finding that
Reilly was an employee, agent, and/or apparent agent
of Foster Wheeler PLC.
6. Specific Jurisdiction
In conducting a personal-jurisdiction analysis, we
review the claims in question and the evidence regarding the jurisdictional facts, but we do not determine
the merits of the claims. See TV Azteca, S.A.B. De C.V.
v. Ruiz, 490 S.W.3d 29, 35 n.1 (Tex. 2016); Dresser-Rand
Group v. Centauro Capital, S.L.U., 448 S.W.3d 577, 584
(Tex. App.—Houston [14th Dist.] 2014, no pet.). Ultimate liability in tort is not a jurisdictional fact, and
the merits of Enterprise’s claims are not at issue in determining whether the trial court erred in ruling on
Foster Wheeler PLC’s special appearance. See id. Thus,
though we describe the substance of Enterprise’s
3

In some places in the record, Reilly is referred to as “Group
President, Business Development.”

23a
claims for the purposes of our personal-jurisdiction
analysis, we do not adjudicate these claims or weigh
their merit. See id. at 586, n.4.
Without commenting on the merits of Enterprise’s
claims, we note that Enterprise bases its claims for
breach of contract, breach of warranty, negligence, equitable estoppel, direct-benefits estoppel, unjust enrichment, and money had and received on the alleged
words and actions of Naylor, Reilly, and others in Texas
after November 13, 2014. Enterprise alleges that
through these words and actions, Foster Wheeler PLC
assumed and ratified Foster Wheeler’s obligations
and benefits under the Contract. Likewise, without
commenting on the merits of Enterprise’s claims, we
note that Enterprise bases its claims for “string-along
fraud” and negligent misrepresentation on the alleged
words of Naylor, Reilly, and others in Texas after November 13, 2014.
In resolving the personal-jurisdiction issues in
this appeal, we are not to determine the validity of
Enterprise’s various allegations as to the merits. See
id. Instead, we are to focus on the relationship among
Foster Wheeler PLC, Texas, and the litigation and determine whether a substantial connection exists between Foster Wheeler PLC’s purposeful contacts with
Texas and the operative facts of the litigation. See Moki
Mac River Expeditions, 221 S.W.3d at 585; Guardian
Royal, 815 S.W.2d at 228. Regardless of the merits,
Enterprise’s claims arise from, relate to, and have a
substantial connection with the words and actions of
Naylor and Reilly in Texas during the Relevant Time.

24a
Because the evidence is legally and factually sufficient
to support the trial court’s finding that Naylor and
Reilly were acting as employees of Foster Wheeler
PLC, Naylor’s and Reilly’s Texas contacts are attributable to Foster Wheeler PLC. See Huynh, 180 S.W.3d at
620. We conclude that the trial court did not err in overruling Foster Wheeler PLC’s special appearance based
on specific jurisdiction. See id.
To reach this conclusion, we need not and do not
address whether the evidence is legally or factually
sufficient to support (1) a finding that Naylor or Reilly
directed and managed the project, (2) the trial court’s
finding that Foster Wheeler PLC, through its employees, agents, and/or apparent agents, directed, controlled, and managed the project in Texas, (3) a finding
that Foster Wheeler PLC, through its employees,
agents, and/or apparent agents, was responsible for
acts and omissions in Texas regarding the project in
Texas that gave rise to Enterprise’s negligence and unjust-enrichment claims, (4) a finding that Bailey was
an employee of Foster Wheeler PLC, (5) a finding that
Naylor, Reilly, or Bailey was an agent of Foster Wheeler
PLC, (6) a finding that Naylor, Reilly, or Bailey had actual or apparent authority, and (7) any of the trial
court’s findings regarding Enterprise’s allegation that
Foster Wheeler is an alter ego of Foster Wheeler PLC.
See Huynh, 180 S.W.3d at 620, n.5.
In its first issue, Foster Wheeler PLC asserts that
the evidence is legally and factually sufficient to support the trial court’s finding that Foster Wheeler PLC
“supplanted [Foster Wheeler] on the Contract and [the

25a
project] and took over total control of, and responsibility for, the [project] in Texas.” We need not and do not
address this finding, in which the trial court addressed
the merits of Enterprise’s claims. See Dresser-Rand
Group, 448 S.W.3d at 584.
In its third issue, Foster Wheeler PLC asserts that
the trial court erred in finding that Foster Wheeler
PLC has a “significant presence in Texas” and “numerous and substantial contacts with Texas.” We need not
and do not address this issue. See Huynh, 180 S.W.3d
at 620, n.5.
We overrule the first issue and we need not address the second issue or the third issue.
7. Traditional Notions of Fair Play and
Substantial Justice
In its fourth issue, Foster Wheeler PLC asserts
that the exercise of personal jurisdiction over Foster
Wheeler PLC would not comport with traditional notions of fair play and substantial justice. After a court
finds the minimum contacts necessary to exercise personal jurisdiction over a nonresident defendant, federal due process requires the court to determine
whether the exercise of that jurisdiction comports with
traditional notions of fair play and substantial justice.
See Guardian Royal Exch. Assur., Ltd., 815 S.W.2d at
228. In deciding this issue, we consider the following
factors: (1) the burden on the defendant, (2) the interests of the forum state in adjudicating the dispute, (3)
the plaintiff ’s interest in obtaining convenient and

26a
effective relief, (4) the interstate judicial system’s interest in obtaining the most efficient resolution of controversies, and (5) the shared interest of the several
states in furthering fundamental substantive social
policies. Id. When the defendant is a resident of another nation, we also must consider (a) the unique burdens placed on the defendant who must defend itself
in a foreign legal system, (b) the procedural and substantive policies of other nations whose interests are
affected by the assertion of jurisdiction by a state
court, and (c) the federal government’s interest in its
foreign-relations policies. Id. at 229. Only in rare cases
will the exercise of personal jurisdiction not comport
with fair play and substantial justice when the nonresident defendant purposefully has established minimum contacts with the forum state. Id. at 231. Foster
Wheeler PLC must present a compelling case that the
presence of some other considerations would render
the exercise of personal jurisdiction unreasonable. See
id.
As to the burden of litigating this case in Harris
County, Texas, Foster Wheeler PLC, a company organized under the laws of England and Wales, does not
argue on appeal that this burden is unreasonable, nor
does Foster Wheeler PLC cite evidence in the record as
to the magnitude of this burden. Indeed, Foster
Wheeler PLC’s briefing as to traditional notions of fair
play and substantial justice contains no citations to the
record. Though litigating in Texas imposes a burden on
Foster Wheeler PLC, evidence in the record shows that,
as of October 31, 2016, Foster Wheeler PLC owned the

27a
controlling interest in 439 subsidiaries and affiliates
that operated in more than 55 countries in virtually
every region of the world. Modern transportation and
communication have made it much less burdensome
for a party to defend itself in a country in which it engages in economic activity. Spir Star AG v. Kimich, 310
S.W.3d 868, 879 (Tex. 2010). The burden on Foster
Wheeler PLC of litigating in Texas is not so severe as
to defeat the ability of Texas courts to exercise personal
jurisdiction over Foster Wheeler PLC in this case. See
Moncrief Oil Int’l, Inc. v. OAO Gazprom, 414 S.W.3d
142, 149 (Tex. 2013).
Foster Wheeler PLC asserts that Texas has no interest in adjudicating Enterprise’s dispute with Foster
Wheeler PLC because Foster Wheeler PLC is a foreign
holding company without assets, offices, representatives, or agents in Texas. But, Will Serle, the Group
Human Resources Director of Foster Wheeler PLC,
signed off on letter agreements with Naylor and Reilly.
In each employment agreement, (1) Foster Wheeler
PLC was an employer, (2) the parties agreed that the
employee “will work out of the Houston office”; (3) the
employment may be terminated for cause if the employee disobeys “lawful orders or directives of the [Foster Wheeler PLC] Board or the CEO”; and (4) the
parties agreed that Texas law (the law of the state in
which the employee resided) would govern the validity,
interpretation, construction, and performance of the
employment agreement. As discussed above, the evidence stands legally and factually sufficient to support
findings that Naylor and Reilly were acting as

28a
employees of Foster Wheeler PLC. Though we do not
address the merits of Enterprise’s claims against
Foster Wheeler PLC, Enterprise’s live pleading shows
that Enterprise asserts various claims against Foster
Wheeler PLC and in support of those claims alleges
substantial damages to Enterprise, a Texas entity, relating to a project for the construction of a propane
dehydrogenation facility in Mont Belvieu, Texas. See
TV Azteca, S.A.B. De C.V., 490 S.W.3d at 35 n.1; DresserRand Group, 448 S.W.3d at 584. Texas holds a significant interest in adjudicating the dispute between Enterprise and Foster Wheeler PLC. See Moncrief Oil
Int’l, Inc., 414 S.W.3d at 155.
Foster Wheeler PLC cites the United States Supreme Court’s discussion of how an expansive view of
general jurisdiction would not accord with fair play
and substantial justice vis-à-vis defendants from other
countries. See Daimler AG v. Bauman, 571 U.S. 117,
140, 134 S.Ct. 746, 187 L.Ed.2d 624 (2014). That discussion is not on point because it involved general jurisdiction rather than specific jurisdiction, and, more
importantly, the Daimler AG case involved claims
“having nothing to do with anything that occurred or
had its principal impact in [the forum state].” Id. at
139, 134 S.Ct. 746. Foster Wheeler PLC cites only two
cases in which a court found that the exercise of personal jurisdiction over the defendant would not comport with traditional notions of fair play and
substantial justice despite the existence, or presumed
existence, of sufficient minimum contacts with the forum state. See Guardian Royal Exch. Assur., Ltd., 815

29a
S.W.2d at 232–33; Juarez v. United Parcel Service de
Mexico S.A. de C.V., 933 S.W.2d 281, 285–86 (Tex.
App.—Corpus Christi 1996, no writ). In each case the
interest of Texas in adjudicating the dispute and each
defendant’s contacts with Texas were significantly less
than in today’s case. See Guardian Royal Exch. Assur.,
Ltd., 815 S.W.2d at 232–33; Juarez, 933 S.W.2d at 285–
86. These cases are not on point.
Foster Wheeler PLC asserts that Foster Wheeler
is the only defendant that was a party to the Contract
and that Foster Wheeler is in this case to defend the
claims against Foster Wheeler. Foster Wheeler PLC
claims that requiring it to “defend the contractual obligations of a Texas subsidiary” would imply that Foster Wheeler PLC “should expect to be dragged into any
of the forums in which its approximately 439 subsidiaries operate—an extremely unreasonable burden.”
These arguments implicitly ask us to adjudicate the
merits of Enterprise’s claims, a task we are not to undertake in determining personal jurisdiction. See TV
Azteca, S.A.B. De C.V., 490 S.W.3d at 35 n.1; DresserRand Group, 448 S.W.3d at 584. In addition, courts
assess personal jurisdiction on a case-by-case basis, so
the ability of Texas courts to exercise personal jurisdiction over Foster Wheeler PLC in today’s case does not
mandate the conclusion that courts in other cases will
be able to exercise personal jurisdiction over Foster
Wheeler PLC. See Grupo TMM, S.A.B. v. Perez, 327
S.W.3d 357, 365–66 (Tex. App.—Houston [14th Dist.]
2010, pet. denied).

30a
After carefully considering the record and all of
the factors in the legal standard, we conclude that
Foster Wheeler PLC has not made a compelling case
that the exercise of personal jurisdiction over Foster
Wheeler PLC in this dispute would be unreasonable.
Therefore, we overrule the fourth issue.
III.

CONCLUSION

Under the applicable standard or review, the evidence is legally and factually sufficient to support a
finding that Naylor and Reilly were acting as employees of Foster Wheeler PLC. Thus, the evidence is legally and factually sufficient to support the trial court’s
finding that each of them was an employee, agent,
and/or apparent agent of Foster Wheeler PLC. Regardless of the merits, Enterprise’s claims arise from, relate
to, and have a substantial connection with the words
and actions of Naylor and Reilly in Texas during the
Relevant Time. The trial court did not err in overruling
Foster Wheeler PLC’s special appearance based on
specific jurisdiction. The exercise of personal jurisdiction over Foster Wheeler PLC in this case comports
with traditional notions of fair play and substantial
justice.
We affirm the trial court’s order on Foster Wheeler
PLC’s amended special appearance.

31a
CAUSE NO. 2016-59155
ENTERPRISE PRODUCTS §
§
OPERATING LLC,
§
Plaintiff,
§
v.
§
§
AMEC FOSTER
§
WHEELER USA CORP.
§
F/K/A FOSTER WHEELER
§
USA CORPORATION;
§
AMEC FOSTER
§
WHEELER PLC,
§
Defendants.
§

IN THE
DISTRICT COURT

HARRIS COUNTY,
TEXAS

151ST JUDICIAL
DISTRICT

ORDER ON AMEC FOSTER WHEELER
PLC’S AMENDED SPECIAL APPEARANCE
(Filed Jan. 29, 2018)
The Court, after hearing Defendant Amec Foster
Wheeler plc’s (“AFW plc”) Amended Special Appearance on January 22, 2018, and having considered all
filings submitted by the parties related thereto, including all exhibits and the evidence submitted, and argument of counsel, finds as follows:
1.

AFW plc’s Amended Special Appearance is
OVERRULED as to SPECIFIC JURISDICTION on each and every one of Plaintiff
Enterprise Products Operating LLC’s (“Enterprise”) claims and causes of action in the
above-captioned lawsuit.

32a
2.

AFW plc’s Special Appearance is OVERRULED as to ALTER EGO JURISDICTION.

3.

AFW plc’s Special Appearance is SUSTAINED as to GENERAL JURISDICTION.

Signed this ___ day of _________, 2018.
SIGNED: Mike Engelhart
1/29/2018
HON. MIKE ENGELHART

33a
FILE COPY
RE: Case No. 20-0617
DATE: 6/18/2021
COA: 14-18-00133-CV
TC#: 2016-59155
STYLE: AMEC FOSTER WHEELER PLC v. ENTER.
PROD. OPERATING LLC
Today the Supreme Court of Texas denied the petition for review in the above-referenced case.
MR. JASON P. STEED
KILPATRICK TOWNSEND
& STOCKTON LLP
2001 ROSS AVE., SUITE 4400
DALLAS, TX 75201
* DELIVERED VIA E-MAIL *

